                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106


February 1, 2012

Report Number: A-07-11-00356

Ms. Jared A. Adair
Senior Vice President, Medicare Division
Wisconsin Physicians Service Insurance Corporation
P.O. Box 8190
Madison, WI 53708

Dear Ms. Adair:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Pension Segmentation Requirements for the
Represented Employees’ Retirement Income Plan at Wisconsin Physicians Service Insurance
Corporation for the Period of August 1, 1998, to December 31, 2007. We will forward a copy of
this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-11-00356
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services
Enclosure
Page 2 – Ms. Jared A. Adair


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 



    REVIEW OF THE PENSION 

SEGMENTATION REQUIREMENTS FOR 

  THE REPRESENTED EMPLOYEES’

  RETIREMENT INCOME PLAN AT 

 WISCONSIN PHYSICIANS SERVICE 

INSURANCE CORPORATION FOR THE 

  PERIOD OF AUGUST 1, 1998, TO 

       DECEMBER 31, 2007 




                       Daniel R. Levinson

                        Inspector General 


                         February 2012 

                         A-07-11-00356 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY 


BACKGROUND

Wisconsin Physicians Service Insurance Corporation and Medicare

Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). With the award to WPS of the CMS Parts A and B Medicare administrative
contractors Jurisdiction 5 contract, WPS acquired Mutual of Omaha’s Medicare Part A business
segment in November 2007.

During the audit period, WPS maintained four separate defined benefit pension plans. This
report will address the pension assets for the Represented Employees’ Retirement Income Plan
only.

On December 31, 2002, WPS terminated its Medicare Part A contract (prior to acquiring the
Medicare Part A business segment from Mutual of Omaha). The closing date for the Medicare
Part A segment was December 31, 2002. Upon the termination of its Medicare Part A contract,
WPS identified Medicare’s share of the Medicare Part A segment excess pension liabilities to be
$61,551.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

OBJECTIVE

Our objective was to determine whether WPS complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   	 updating the Medicare Part B segment’s pension assets from August 1, 1998, to 

      December 31, 2007, 


   	 updating the Medicare Part A segment’s pension assets from August 1, 1998, to 

      December 31, 2002, and 



                                                 i
   	 determining Medicare’s share of the Medicare Part A segment excess pension liabilities
      as a result of the termination of the Medicare contract.

SUMMARY OF FINDINGS

WPS did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when updating its Medicare Part B segment pension assets from
August 1, 1998, to December 31, 2007, and when updating its Medicare Part A segment pension
assets from August 1, 1998, to December 31, 2002. WPS identified Medicare Part B segment
pension assets of $8,216,869; however, we determined that the Medicare Part B segment pension
assets were $7,780,996 as of December 31, 2007. Thus, WPS overstated the Medicare Part B
segment pension assets by $435,873 as of December 31, 2007.

In addition, WPS identified Medicare Part A segment pension assets of $163,745; however, we
determined that the Medicare Part A segment pension assets were $116,702 as of
December 31, 2002. Thus, WPS overstated Medicare Part A segment pension assets by $47,043
as of December 31, 2002.

Furthermore, WPS did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare Part A segment excess pension liabilities associated with the
termination of the Medicare contract. WPS computed Medicare’s share of the Medicare Part A
segment excess pension liabilities to be $61,551; however, we determined that Medicare’s share
of the Medicare Part A segment excess pension liabilities was $112,278 as of
December 31, 2002. Thus, WPS understated Medicare’s share of excess pension liabilities, due
to the termination of the Medicare Part A contract, by $50,727.

RECOMMENDATIONS

We recommend that WPS:

   	 reduce the Medicare Part B segment pension assets as of December 31, 2007, by 

      $435,875 and recognize $7,780,996 as the Medicare segment’s pension assets,
 
       
   	 reduce the Medicare Part A segment pension assets as of December 31, 2002, by $47,043
      and recognize $116,702 as the Medicare segment’s pension assets, and 

   	 increase Medicare’s share of the Medicare Part A segment excess pension liabilities as of
       December 31, 2002, by $50,727 and submit for reimbursement $112,278 as Medicare’s
       share of the excess pension liabilities due to the segment closing calculation.  

AUDITEE COMMENTS

In written comments on our draft report, WPS concurred with our recommendations. WPS’s
comments are included in their entirety as Appendix D.




                                              ii
                                                   TABLE OF CONTENTS 




INTRODUCTION......................................................................................................................... 1 


          BACKGROUND ................................................................................................................ 1 

              Wisconsin Physicians Service Insurance Corporation and Medicare ..................... 1 

              Federal Requirements ............................................................................................. 2 

              Pension Segmentation ............................................................................................. 2 


          OBJECTIVE, SCOPE, AND METHODOLOGy .............................................................. 2 

               Objective ................................................................................................................. 2 

               Scope ....................................................................................................................... 2 

               Methodology ........................................................................................................... 3 

FINDINGS AND RECOMMENDATIONS ............................................................................... 4 


          UPDATE OF MEDICARE SEGMENTS' PENSION ASSETS ........................................ 4 

              Federal Requirements ............................................................................................. 4 

              Medicare Part B Segment Pension Assets .............................................................. 5 

              Medicare Part A Segment Pension Assets .............................................................. 7 


          MEDICARE PART A SEGMENT EXCESS PENSION LIABILITIES ........................... 8 

               Federal Requirements ............................................................................................. 8 

               Determination of Excess Medicare Part A Segment Pension Liabilities 

                 as of December, 31, 2002 ................................................................................... 9 

               Medicare's Share of Medicare Part A Segment Excess Pension Liabilities 

                 as of December 31, 2002 ..................................................................................... 9 


         RECOMMENDATIONS .................................................................................................. 10 


         AUDITEE COMMENTS .................................................................................................. 11 


APPENDIXES

         A: 	       WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION
                    STATEMENT OF MARKET VALUE OF REPRESENTED EMPLOYEES'
                    RETIREMENT INCOME PENSION PLAN ASSETS FOR THE PERIOD
                    AUGUST 1, 1998, TO DECEMBER 31,2007

         B: 	       EXCESS MEDICARE PART A SEGMENT PENSION LIABILITIES

         C: 	       CALCULATION OF THE MEDICARE PART A SEGMENT 

                    AGGREGATE MEDICARE PERCENTAGE 


         D: 	       AUDITEE COMMENTS


                                                                    111
                Glossary of Abbreviations and Acronyms

CAS   Cost Accounting Standards
CMS   Centers for Medicare & Medicaid Services
FAR   Federal Acquisition Regulation
MAC   Medicare administrative contractor
WAV   weighted average value
WPS   Wisconsin Physicians Service Insurance Corporation




                                    iv
                                               INTRODUCTION 


BACKGROUND

Wisconsin Physicians Service Insurance Corporation and Medicare

Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). With the award to WPS of the CMS Parts A and B Medicare administrative
contractors (MAC) Jurisdiction 5 contract, WPS acquired Mutual of Omaha’s Medicare Part A
business segment in November 2007.1

During the audit period, WPS had four defined benefit pension plans. The Employees’ Pension
Plan and the Managerial Pension Plan were ongoing pension plans that we reviewed in prior
audits.2 On August 1, 1998, WPS established two additional defined benefit pension plans: the
Represented Employees’ Retirement Income Plan (ERIP) and the Managerial Retirement
Program for Michigan, Illinois, and Minnesota Employees of WPS. Effective
December 31, 2007, WPS merged the ERIP and the Managerial Retirement Program for
Michigan, Illinois, and Minnesota Employees of WPS and renamed the plan WPS Managerial
Retirement Program for Selected Locations. This report will address the pension assets for the
ERIP only.3

On December 31, 2002, WPS terminated its Medicare Part A contract (prior to receiving the
Medicare Part A business segment from Mutual of Omaha). The closing date for the Medicare
Part A segment was December 31, 2002. Upon the termination of its Medicare Part A contract,
WPS identified Medicare’s share of the Medicare Part A segment excess pension liabilities to be
$61,551.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to MACs between October 2005 and
October 2011. Most, but not all, of the MACs are fully operational; for jurisdictions where the MACs are not fully
operational, the fiscal intermediaries and carriers continue to process claims. For purposes of this report, the term
“Medicare contractor” means the fiscal intermediary, carrier, or MAC, whichever is applicable.
2
 We performed a prior pension segmentation audit (A-05-92-00048, issued October 1992), which brought the
Medicare segment pension assets to December 31, 1989.
3
 We provide the results of our review of the Managerial Retirement Program for Michigan, Illinois, and Minnesota
Employees of WPS in a separate report (A-07-11-00357).

                                                          1

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether WPS complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   	 updating the Medicare Part B segment’s pension assets from August 1, 1998, to 

      December 31, 2007, 


   	 updating the Medicare Part A segment’s pension assets from August 1, 1998, to 

      December 31, 2002, and 


   	 determining Medicare’s share of the Medicare Part A segment excess pension liabilities
      as a result of the termination of the Medicare contract.

Scope

We reviewed WPS’s identification of its Medicare segments; update of Medicare Part B segment
assets from August 1, 1998, to December 31, 2007; update of Medicare Part A segment assets
from August 1, 1998, to December 31, 2002; and the Medicare Part A segment closing
calculation as of December 31, 2002.

Achieving our objective did not require us to review WPS’s overall internal control structure.
We reviewed controls relating to the identification of the Medicare segment, the update of the
segment’s assets, and the calculation of the segment closing to ensure adherence to the Medicare
contracts, CAS 412, and CAS 413.


                                                 2

We performed fieldwork at WPS’s office in Madison, Wisconsin, during July 2009.

Methodology

To accomplish our objective, we did the following:

   	 We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

   	 We reviewed the annual actuarial valuation reports prepared by WPS’s actuary, which
      included the pension plan’s assets, liabilities, normal costs, contributions, benefit
      payments, investment earnings, and administrative expenses. We used this information
      to calculate the Medicare segments’ assets.

   	 We reviewed the Medicare Part A segment closing calculation prepared by WPS’s
      actuary.

   	 We obtained and reviewed the pension plan documents and Department of Labor/Internal
      Revenue Service (IRS) Forms 5500 used in calculating the Medicare segments’ assets.

   	 We interviewed WPS staff responsible for identifying the Medicare segments to 

      determine whether the segments were properly identified in accordance with the 

      Medicare contracts. 


   	 We reviewed WPS’s accounting records to verify the segment identification and benefit
      payments made to the Medicare segments.

   	 We provided the CMS Office of the Actuary with the actuarial information necessary for
      it to calculate both the Medicare Part A segment pension assets (at market value) from
      August 1, 1998, to December 31, 2002, and the Medicare segment’s excess pension
      liabilities as of December 31, 2002.
        
   	 We provided the CMS Office of the Actuary with the actuarial information necessary for
      it to calculate the Medicare Part B segment pension assets (at market value) from
      August 1, 1998, to December 31, 2007.

   	 We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of WPS’s pension costs claimed for
Medicare reimbursement, to be issued in a subsequent report (A-07-11-00369), and used the
information obtained during that audit in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                               3

                         FINDINGS AND RECOMMENDATIONS


WPS did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when updating its Medicare Part B segment pension assets from
August 1, 1998, to December 31, 2007, and when updating its Medicare Part A segment pension
assets from August 1, 1998, to December 31, 2002. WPS identified Medicare Part B segment
pension assets of $8,216,869; however, we determined that the Medicare Part B segment pension
assets were $7,780,996 as of December 31, 2007. Thus, WPS overstated the Medicare Part B
segment pension assets by $435,873 as of December 31, 2007.

In addition, WPS identified Medicare Part A segment pension assets of $163,745; however, we
determined that the Medicare Part A segment pension assets were $116,702 as of
December 31, 2002. Thus, WPS overstated Medicare Part A segment pension assets by $47,043
as of December 31, 2002.

Appendix A presents details on both Medicare Part B segment pension assets from
August 1, 1998, to December 31, 2007, and Medicare Part A segment pension assets from
August 1, 1998, to December 31, 2002, as determined during our audit.

Furthermore, WPS did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare Part A segment excess pension liabilities associated with the
termination of the Medicare contract. WPS computed Medicare’s share of the Medicare Part A
segment excess pension liabilities to be $61,551; however, we determined that Medicare’s share
of the Medicare Part A segment excess pension liabilities was $112,278 as of
December 31, 2002. Thus, WPS understated Medicare’s share of excess pension liabilities, due
to the termination of the Medicare Part A contract, by $50,727.

UPDATE OF MEDICARE SEGMENTS’ PENSION ASSETS

WPS did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when updating the Medicare Part B segment pension assets from
August 1, 1998, to December 31, 2007, and when updating its Medicare Part A segment pension
assets from August 1, 1998, to December 31, 2002.

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       … any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:

              1.	 The majority of the salary dollars is allocated to the Medicare
                  agreement/contract; or,




                                               4

               2.	 Less than a majority of the salary dollars are charged to the Medicare
                   agreement/contract, and these salary dollars represent 40% or more of
                   the total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. The CAS requires expenses to be allocated among the segments in
proportion to the investment earnings. In addition, CAS 413.50(c)(8) requires an adjustment to
be made for transfers (participants who enter or leave the segment) if the transfers materially
affect the segment’s ratio of pension plan assets to actuarial accrued liabilities.

For plan years beginning after March 30, 1995, the CAS requires investment income and
expenses to be allocated among segments based on the ratio of the segment’s weighted average
value (WAV) of assets to Total Company WAV of assets.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Medicare Part B Segment Pension Assets

WPS overstated Medicare Part B segment pension assets by $435,873 as of December 31, 2007,
as a result of the component variances discussed below.

Table 1 summarizes the audit adjustment required to update the Medicare Part B segment
pension assets to December 31, 2007, in accordance with Federal requirements.

    Table 1: Summary of Medicare Part B Audit Adjustments as of December 31, 2007
                                              Per Audit       Per WPS Difference
     Contributions and Prepayment Credits         $5,578,411 $5,911,703 ($333,292)
     Benefit Payments                                476,208    487,944     11,736
     Net Transfers In                                284,687    329,014   (44,327)
     Earnings, Net Expenses                        2,394,106 2,464,096    (69,990)
   Under/(Over)statement of Medicare Pension Segment Assets             ($435,873)

Contributions and Prepayment Credits Overstated

WPS overstated contributions and prepayment credits by $333,292 for the Medicare Part B
segment, primarily because it allocated contributions to the Medicare Part B segment in excess
of the assignable pension costs. As a result, WPS overstated the Medicare Part B segment
pension assets by $333,292.

The audited contributions and prepayment credits are based on the assignable pension costs. In
compliance with the CAS, we applied prepayment credits first to current-year assignable pension
                                                 5

costs because the credits were available at the beginning of the year, and then updated any
remaining credits with interest to the next measurement (valuation) date. We then allocated
contributions as needed to assigned pension costs as of the date of deposit. Table 2 provides
information on our calculations of contributions and prepayment credits, WPS’s calculations,
and the difference between the two on a year-by-year basis.

                       Table 2: Contributions and Prepayment Credits
                                 Medicare Part B Segment
                                Per Audit     Per WPS    Difference
                       1998       $254,673      $254,673          $0
                       1999        617,810       618,741       (931)
                       2000        637,903       638,468       (565)
                       2001        553,832       553,683       (149)
                       2002        617,875       566,894      50,981
                       2003        761,634       868,418   (106,784)
                       2004        753,445       762,098     (8,653)
                       2005        677,201       755,000    (77,799)
                       2006        704,038       635,361      68,677
                       2007              0       258,367   (258,367)
                       Total    $5,578,441 $5,911,703     ($333,292)

Benefit Payments Overstated

WPS overstated benefit payments by $11,736 because of differences in the identification of the
Medicare Part B segment participants. As a result, WPS understated the Medicare Part B
segment pension assets by $11,736.

Net Transfers In Overstated

WPS overstated transfers in to the Medicare Part B segment by $44,327, primarily because of
differences in the identification of the Medicare Part B segment participants. This overstatement
of the net transfer adjustment resulted in an overstatement of the Medicare Part B segment assets
by $44,327.

Earnings, Net Expenses Overstated

WPS overstated investment earnings, less administrative expenses, by $69,990 for the Medicare
Part B segment because it used incorrect contribution and prepayment credit, benefit payment,
and net transfer amounts (all discussed above) to develop the Medicare Part B segment pension
asset base. In our audited update, we allocated earnings and expenses based on the applicable
CAS requirements.




                                                6

Medicare Part A Segment Pension Assets

WPS overstated Medicare Part A segment pension assets by $47,043 as of December 31, 2002,
as a result of the component variances discussed below.

Table 3 summarizes the audit adjustment required to update the Medicare Part A segment
pension assets to December 31, 2002, in accordance with Federal requirements.

   Table 3: Summary of Medicare Part A Audit Adjustments as of December 31, 2002
                                               Per Audit     Per WPS Difference
     Contributions and Prepayment Credits          $613,374 $663,008 ($49,634)
     Benefit Payments                                 27,464    28,506      1,042
     Net Transfers Out                             (402,469) (407,631)      5,162
     Earnings, Net Expenses                         (66,739) (63,126)    (3,613)
   Under/(Over)statement of Medicare Pension Segment Assets            ($47,043)

Contributions and Prepayment Credits Overstated

WPS overstated contributions and prepayment credits by $49,634 for the Medicare Part A
segment, primarily because it allocated contributions to the Medicare Part B segment in excess
of the assignable pension costs. As a result, WPS overstated the Medicare Part A segment
pension assets by $49,634.

The audited contributions and prepayment credits are based on the assignable pension costs. In
compliance with the CAS, we applied prepayment credits first to current-year assignable pension
costs because the credits were available at the beginning of the year, and then updated any
remaining credits with interest to the next measurement (valuation) date. We then allocated
contributions as needed to assigned pension costs as of the date of deposit.

Benefit Payments Overstated

WPS overstated benefit payments by $1,042 because of differences in the identification of the
Medicare Part A segment participants. As a result, WPS understated the Medicare Part A
segment pension assets by $1,042.

Net Transfers Out Overstated

WPS overstated net transfers out of the Medicare Part A segment by $5,162, primarily because
of differences in identification of the Medicare Part A segment participants. This overstatement
of the net transfer adjustment resulted in an understatement of the Medicare Part A segment
assets by $5,162.

Earnings, Net Expenses Overstated

WPS overstated investment earnings, less administrative expenses, by $3,613 for the Medicare
Part A segment because it used incorrect contribution, prepayment credit, benefit payment, and
                                                7

net transfer amounts (all discussed above) to develop the Medicare Part A segment pension asset
base. In our audited update, we allocated earnings and expenses based on the applicable CAS
requirements.

MEDICARE PART A SEGMENT EXCESS PENSION LIABILITIES

WPS did not fully comply with Federal requirements in its calculation of Medicare’s share of the
Medicare Part A segment excess pension liabilities associated with the termination of the
Medicare contract.

Federal Requirements

CAS 413 requires a segment closing adjustment to be made in order to recognize Medicare’s
share of the Medicare Part A segment excess pension liabilities as a result of the termination of
the Medicare Part A contract.

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension liabilities in
accordance with CAS 413.

Cost Accounting Standards

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs….

       (ii) … The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with 9904.412-50(a)(2).




                                                 8

       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of
       the segment, pension plan termination, or curtailment of benefits. If such a date is
       not readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.

Determination of Excess Medicare Part A Segment Pension Liabilities
as of December 31, 2002

WPS identified $61,551 in excess Medicare Part A segment pension liabilities as of
December 31, 2002. However, we calculated the excess Medicare Part A segment pension
liabilities to be $112,289 as of that date. Therefore, WPS understated the excess pension
liabilities by $50,738. The understatement occurred because WPS did not fully comply with
Federal requirements in its calculation of the Medicare Part A segment’s excess pension
liabilities. Specifically, WPS did not compute the Medicare Part A segment excess pension
liabilities correctly because it (a) overstated the Medicare Part A segment’s final market value of
assets (as previously discussed), (b) incorrectly identified a prepayment credit as adjustment to
the Medicare Part A segment’s final market value of assets, and (c) adjusted the final accrued
actuarial liabilities on the basis of a 1999 pension plan amendment for which the CAS did not
require that an adjustment be made. Appendix B shows a comparison of our and WPS’s
calculations of the excess Medicare Part A segment pension liabilities as of December 31, 2002.
The development of the excess Medicare Part A segment pension liabilities was used to
determine Medicare’s share of the Medicare Part A segment excess pension liabilities as
discussed below.

Medicare’s Share of Medicare Part A Segment Excess Pension Liabilities
as of December 31, 2002

Federal Requirements

The methodology for determining the Federal Government’s share of excess pension liabilities is
addressed by CAS 413.50(c)(12)(vi), which states:

       The Government’s share of the adjustment amount determined for a segment shall
       be the product of the adjustment amount and a fraction. The adjustment amount
       shall be reduced for any excise tax imposed upon assets withdrawn from the
       funding agency of a qualified pension plan. The numerator of such fraction shall
       be the sum of the pension plan costs allocated to all contracts and subcontracts
       (including Foreign Military Sales) subject to this Standard during a period of
       years representative of the Government’s participation in the pension plan. The
       denominator of such fraction shall be the total pension costs assigned to cost
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique. [Emphasis added.]

                                                 9

Medicare’s Share of the Medicare Part A Segment Excess Pension Liabilities Understated

WPS did not fully comply with Federal requirements when determining Medicare’s share of the
Medicare Part A segment excess pension liabilities associated with the termination of the
Medicare contract as of December 31, 2002. WPS calculated $61,551 as Medicare’s share of the
Medicare Part A segment excess pension liabilities as of December 31, 2002; however, we
determined that Medicare’s share of the Medicare Part A segment excess pension liabilities was
$112,278 as of December 31, 2002. The understatement occurred primarily because of
differences in the calculation of the excess pension liabilities as of December 31, 2002 (as
discussed above). Thus, WPS understated Medicare’s share of the Medicare Part A segment
excess pension liabilities by $50,727.

In accordance with CAS 413.50(c)(12)(vi), we calculated the aggregate Medicare percentage
using the Medicare segment pension costs developed during our current pension costs claimed
(A-07-11-00369) audit. Appendix C shows our calculation of the Medicare Part A segment’s
aggregate Medicare percentage; Table 4 shows our calculation of Medicare’s share of the
Medicare Part A segment excess liabilities.

        Table 4: Calculation of Medicare’s Share of the Medicare Segment Part A
                                 Excess Pension Liabilities
                        Excess Medicare         Aggregate       Excess Liabilities
                             Segment            Medicare         Attributable to
                            Liabilities       Percentage (B)    Medicare (A x B)
                                (A)

      Per OIG                    ($112,289)              99.99%               ($112,278)
      Per WPS                     ($61,551)             100.00%                ($61,551)
      Difference                  ($50,738)                .01%                ($50,727)

RECOMMENDATIONS

We recommend that WPS:

   	 reduce the Medicare Part B segment pension assets as of December 31, 2007, by 

      $435,875 and recognize $7,780,996 as the Medicare segment’s pension assets,
 
       
   	 reduce the Medicare Part A segment pension assets as of December 31, 2002, by $47,043
      and recognize $116,702 as the Medicare segment’s pension assets, and 

   	 increase Medicare’s share of the Medicare Part A segment excess pension liabilities as of
       December 31, 2002, by $50,727 and submit for reimbursement $112,278 as Medicare’s
       share of the excess pension liabilities due to the segment closing calculation. 




                                              10 

AUDITEE COMMENTS

In written comments on our draft report, WPS concurred with our recommendations. WPS
stated that it will:

   	 reduce the Medicare Part B segment pension assets as of December 31, 2007, by 

      $435,875 and recognize $7,780,996 as the Medicare segment’s pension assets, 


   	 reduce the Medicare Part A segment pension assets as of December 31, 2002, by $47,043
      and recognize $116,702 as the Medicare segment’s pension assets, and

   	 increase Medicare’s share of the Medicare Part A segment excess pension liabilities as of
      December 31, 2002, by $50,727 and submit for reimbursement $112,278 as Medicare’s
      share of the excess pension liabilities due to the segment closing calculation.

WPS’s comments are included in their entirety as Appendix D.




                                              11 

APPENDIXES

                                                                                                 Page 1 of 3

                 APPENDIX A: WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION 

   STATEMENT OF MARKET VALUE OF REPRESENTED EMPLOYEES’ RETIREMENT INCOME PLAN PENSION ASSETS


                         FOR THE PERIOD AUGUST 1, 1998, TO DECEMBER 31, 2007



            Description           Total Company      Other Segment       Medicare Part B     Medicare Part A

Assets August 1, 1998       1/                $0                 $0                    $0                      $0

Contributions               2/           254,673                     0            254,673                       0
Prepayment Credits                             0                     0                  0                       0
Earnings                                       0                     0                  0                       0
Benefit Payments            3/            13,517                     0             13,517                       0
Expenses                                       0                     0                  0                       0
Transfers                                      0                     0                  0                       0

Assets January 1, 1999                  $268,190                 $0             $268,190                       $0

Contributions                            771,900                     0            618,861             153,039
Prepayment Credits          4/                 0                     0             (1,051)              1,051
Earnings                    5/           205,750                     0            184,114              21,636
Benefit Payments                            (533)                    0               (533)                  0
Expenses                    6/           (67,909)                    0            (60,768)             (7,141)
Transfers                                      0                     0                  0                   0

Assets January 1, 2000                 $1,177,398                $0            $1,008,813            $168,585

Contributions                            805,334                     0            638,020             167,314
Prepayment Credits                             0                     0               (117)                117
Earnings                                  14,831                     0             12,490               2,341
Benefit Payments                         (17,835)                    0            (13,511)             (4,324)
Expenses                                 (45,761)                    0            (38,538)             (7,223)
Transfers                   7/                 0                     0             (5,425)              5,425

Assets January 1, 2001                 $1,933,967                $0            $1,601,732            $332,235

Contributions                             700,872                    0            553,880             146,992
Prepayment Credits                              0                    0                (48)                 48
Earnings                                 (142,443)                   0           (117,228)            (25,215)
Benefit Payments                          (28,288)                   0            (19,405)             (8,883)
Expenses                                  (57,186)                   0            (47,063)            (10,123)
Transfers                                       0                    0            (36,986)             36,986

Assets January 1, 2002                 $2,406,922                $0            $1,934,882            $472,040

Contributions                             762,688                    0            617,991             144,697
Prepayment Credits                              0                    0               (116)                116
Earnings                                 (152,156)                   0           (122,687)            (29,469)
Benefit Payments                          (25,920)                   0            (11,663)            (14,257)
Expenses                                  (59,612)                   0            (48,067)            (11,545)
Transfers                                       0                    0            444,880            (444,880)

Assets December 31, 2002    8/         $2,931,922                $0            $2,815,220            $116,702
                                                                                           Page 2 of 3


            Description          Total Company      Other Segment      Medicare Part B

Assets January 1, 2003                $2,931,922          $116,702           $2,815,220


Contributions                           868,418            106,784              761,634
Prepayment Credits                            0                  0                    0
Earnings                                597,320             29,438              567,882
Benefit Payments                        (38,949)            (8,894)             (30,055)
Expenses                                (71,688)            (3,533)             (68,155)
Transfers                                     0                  0                    0

Assets January 1, 2004                $4,287,023          $240,497           $4,046,526

Contributions                           762,098             119,353             642,745
Prepayment Credits                            0            (110,700)            110,700
Earnings                                551,198              21,523             529,675
Benefit Payments                        (28,458)             (8,894)            (19,564)
Expenses                                (63,934)             (2,496)            (61,438)
Transfers                                     0             117,782            (117,782)

Assets January 1, 2005                $5,507,927          $377,065           $5,130,862

Contributions                           755,000             191,515             563,485
Prepayment Credits                            0            (113,716)            113,716
Earnings                                473,303              28,227             445,076
Benefit Payments                        (34,704)             (9,751)            (24,953)
Expenses                                (81,890)             (4,884)            (77,006)
Transfers                                     0                   0                   0

Assets January 1, 2006                $6,619,636          $468,456           $6,151,180

Contributions                            709,000            140,698             568,302
Prepayment Credits                             0           (135,736)             135,736
Earnings                                 865,343             48,529             816,814
Benefit Payments                        (113,476)           (28,825)            (84,651)
Expenses                                (123,439)            (6,923)           (116,516)
Transfers                                      0                  0                   0

Assets January 1, 2007                $7,957,064          $486,199           $7,470,865

Contributions                            259,322           259,322
Prepayment Credits                             0                 0                    0
Earnings                                 629,682            47,678              582,004
Benefit Payments                        (301,836)          (29,963)            (271,873)
Expenses                                       0                 0                    0
Transfers                                      0                 0                    0

Assets December 31, 2007              $8,544,232          $763,236           $7,780,996
Per WPS                     9/        $8,544,232          $327,363           $8,216,869
Asset Variance             10/                $0          $435,873            ($435,873)
                                                                                                                                             Page 3 of 3

ENDNOTES

 1/ The pension plan was established on August 1, 1998. We obtained the beginning market value of assets from the actuarial valuation reports prepared by
    Wisconsin Physicians Service Insurance Corporation’s (WPS) actuary. At the inception of this plan it was 100% Medicare Part B employees so Total
    Company and the Medicare Part B segment were the same; however, through the audit period WPS developed the “Other” segment and the Medicare
    Part A Segment. The amounts shown for the “Other” segment represent the difference between the Total Company and the Medicare segments. All
    pension assets in this appendix are shown at market value.

 2/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of Labor/Internal Revenue Service Forms 5500.
    We allocated Total Company contributions to the Medicare segment based on the ratio of the Medicare segment funding target divided by the Total
    Company funding target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for in the “Other” segment
    until needed to fund pension costs in the future.

 3/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained the benefit payments from documents 

    provided by WPS.



 4/ Prepayment credits represent funds available to satisfy future funding requirements and are applied to future funding requirements before current year
    contributions in order to avoid incurring unallowable interest. Prepayment credits are transferred to the Medicare segment as needed to cover funding
    requirements.

 5/ We obtained investment earnings from the actuarial valuation reports. We allocated investment earnings based on the ratio of the segment’s weighted
    average value (WAV) of assets to Total Company WAV of assets as required by the Cost Accounting Standards (CAS).

 6/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 7/ We identified participant transfers between segments by comparing valuation data files provided by WPS. Asset transfers were equal to the actuarial 

    liability determined under the accrued benefit cost method in accordance with the CAS. Furthermore, the CAS requires an adjustment to be made for 

    transfers only if the transfers materially affect the segment’s ratio of pension plan assets to actuarial accrued liabilities. 


 8/ The Medicare Part A segment closed as of December 31, 2002. The remaining assets were moved to the “Other” segment as of January 1, 2003.

 9/ We obtained total asset amounts as of December 31, 2007, from the actuarial valuation report prepared by WPS’s actuary.

10/ The asset variance represents the difference between our calculation of Medicare segment pension assets and WPS’s calculation of the Medicare segmen
    pension assets.
                      APPENDIX B: EXCESS MEDICARE PART A SEGMENT PENSION LIABILITIES

                                                                                          WPS                 OIG              Variance
Final Market Value of Assets As December 31, 2002                              1/         $163,745            $116,702         ($47,043)
   Prepayment Credit                                                           2/          (36,210)                  0
Adjusted Final Market Value of Assets                                                      127,535             116,702           (10,833)

Accrued Actuarial Liabilities                                                  3/          228,991             228,991
Adjustment for Plan Amendment:                                                 4/
  1/1/1999 Plan Amendment                                                      5/          (39,905)                  0
Adjusted Actuarial Liabilities                                                             189,086             228,991           (39,905)

Excess Medicare Segment Pension Assets/(Liabilities)                           6/		         (61,551)          (112,289)          (50,738)
                                                                                            100.00%             99.99%             0.01%
Medicare’s Share of Excess Pension Liabilities		                                           ($61,551)         ($112,278)          $50,727

ENDNOTES:

1/ We obtained the final market value of assets from Appendix A.

2/ Prepayment credits are carried in the “Other” segment; therefore, there was no prepayment credit in the Medicare Part A segment as of
   December 31, 2002.

3/ The accrued actuarial liabilities included participants that were in the Medicare Part A segment as of December 31, 2002.

4/ CAS 413-50(c)(12)(iv) required that pension plan improvements adopted within 60 months of the date of the event (plan termination),
   which increase the actuarial accrued liability, shall be recognized on a prorated basis using the number of months that the the date of
   adoption preceded the event date.

5/ Plan amendment on January 1, 1999, was not a pension plan improvement; therefore, the CAS does not require a prorated adjustment
   at the segment closing.

6/ We calculated the Medicare segment excess liabilities due to the termination of the Medicare contract based upon the required
   adjustments. The Medicare segment excess liabilities represent the adjusted final market value of assets less the adjusted accrued
   actuarial liabilities.
APPENDIX C: CALCULATION OF THE MEDICARE PART A SEGMENT 

            AGGREGATE MEDICARE PERCENTAGE




     WPS Medicare Segment Part A Aggregate Medicare Percentage
          Medicare Segment
        Pension Costs Claimed  Total Medicare
 Fiscal     for Medicare          Segment            Aggregate
 Year      Reimbursement        Pension Costs       Percentage1
 1998                      $0                 $0
 1999                 113,794           113,794
 2000                 161,693           161,693
 2001                 149,391           149,436
 2002                 150,837           150,837
                                                                            2
 2003                  38,259            38,259
                                                                            3
 Total               $613,974          $614,019          99.99%

 1
  The aggregate percentage was based on the audited pension costs as
 determined during the pension audits related to the Wisconsin Physicians
 Service Insurance Corporation (WPS) Medicare Part A segment. The
 information for 1998 - 2003 was obtained during the current review of
 pension costs claimed (A-07-11-00369).

 2
 The fiscal year 2003 pension costs were computed for October 1, 2002, to
 December 31, 2002.

 3
  We calculated the aggregate Medicare percentage by dividing the
 Medicare Segment Pension Costs Claimed for Medicare Reimbursement
 (numerator) by the Total Medicare Segment Pension Costs (denominator)
 pursuant to Cost Accounting Standard 413.
                        APPENDIX D: AUDITEE COMMENTS 




  CAIS/                                                                                             Medicare
-~-I--I


                                                            Decembe r 2, 2011


   Mr. Patrick J. Cogley
   Regional lnspcclor General for Audit Services
   HHS, Office of Audit Serv ices
   60 1 East 12'h Street, Room 0429
   Kansas City, MO 64106

                                                            RE: OIG Draft Report Number A-07-1 1-003S6

   Dear Mr. Cogley:


   This letter is in response to Report Number A-07-11-00356, the Draft Audit Report Review of
   the Pension Segmentation Requirements for the Represented Employees' Retirement Income
   Plan at Wisconsi n Ph ysic ians Service Insurance Corporation for the Period of August I, 1998, 10
   December 3!,2007.

   WI'S concurs with the audit recommendations. WI'S will:
   • 	 Reduce the Medicare Pan B segment pension assets as of December 31, 2007, by $435,875
       and recognize $7,780,996 as the Medicare seg ment's pension assets,
   • 	 Reduce the Medicare Pan A segment pension assets as of December 3 1, 2002, by $47,043
       and recognize $116,702 as the Medicare segment's pension assets, and
   • 	 Increase Medica rc's share of the Med icare Part A segment excess pension liabili ti es as of
       December 31 , 2002, by $50,727 and submit for reim bursement $ 1 12,278 as Medicare's sha re
       of the excess pension liabilities due to the seg ment closing calculation.

   Thank you for the opport un ity to comment on thi s report. If you have any questi ons, please
   contact me at (608) 301 -2639 or bye-mail atJared.Adair@wpsic.com.

                                                            Sincerely,




               WiS<:o/'lsin Physicians Service \""""",," Corpotltion serving a. a CMS "",,!ra<tor
               P .o . 80. 1787. Mad4son, WI SJ701 • P!1one 6()8.2214711
